<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2012 budget 
request for programs within the subcommittee's jurisdiction.]
  Prepared Statement of the American Public Transportation Association
                                overview
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to submit written testimony to the subcommittee on the 
fiscal year 2012 funding needs for public transportation security 
within the budgets of the Federal Emergency Management Agency (FEMA) 
State and local grants program, and the Transportation Security 
Administration (TSA), Transportation Sector Network Management Mass 
Transit Division, and throughout the Department of Homeland Security 
(DHS). The American Public Transportation Association (APTA) urges the 
Congress to increase appropriations for the fiscal year 2012 Rail and 
Public Transportation Security grants within the FEMA State and local 
grants. Past appropriations have not come close to the levels 
authorized under the Implementing Recommendations of the 9/11 
Commission Act of 2007 (Public Law 110-53). We appreciate the funding 
that the Congress has provided to date, but at the recent levels, grant 
allocations to regions, and ultimately the awards to the individual 
transit agencies are inadequate.
    Recent cuts to the public transportation security grant program 
continue a disappointing trend on support for surface transportation 
security programs. These grants are critical to transit agencies in 
meeting security improvement needs. Transit provides 18 times as many 
passenger trips as aviation, but aviation receives 12 times as much 
security funding as surface transportation security. Spending per 
passenger for transit security is 4 cents; for aviation it's $8.67. 
Aviation security receives 215 times as much Federal funding per 
passenger as transit. Threats to public transportation continue to 
exist as we were reminded again last week with the terrorist bombing of 
the subway in Minsk, Belarus. Public transportation security investment 
should be increased, not decreased and I urge the Congress to find the 
resources to appropriate to levels consistent with those authorized in 
the 9/11 Commission Act.
                               about apta
    APTA is a nonprofit international association of nearly 1,500 
public and private-member organizations, including transit systems and 
commuter, intercity and high-speed rail operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions; transit associations and State departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient, and economical public transportation services and 
products. More than 90 percent of the people using public 
transportation in the United States and Canada are served by APTA-
member systems. In accordance with the National Infrastructure 
Protection Plan, APTA is recognized by DHS as serving in the capacity 
of the Mass Transit Sector Coordinating Council.
          greater investments in transit security are required
    Safety and security have always been the top priority of the public 
transportation industry. Since 9/11, transit systems have taken many 
steps to further improve security. Public transit agencies with State 
and local governments, have invested billions of dollars on security 
and emergency preparedness programs. While we recognize that as an open 
public infrastructure there are limitations on what specific steps can 
be taken to secure transit facilities and operations, I want to 
emphasize that there are still many steps that must be taken and many 
security improvements that can be made to improve the security of our 
systems and enhance the safety of our Nation's transit riders.
    I have testified on numerous occasions of the well-established and 
significant risks that transportation and public transportation 
specifically, continue to face. As detailed below, the Government 
Accountability Office (GAO) and the Mineta Transportation Institute 
have chronicled the history of attacks on public transportation and the 
members of the subcommittee are certainly well aware of the history of 
attacks and the thwarted plots and continuing investigations that 
clearly make the case. However, the Congress continues to look at the 
issue of transportation security in the rigid structure of agency 
budget silos. I urge the subcommittee to evaluate the modal security 
needs independent of history or agency budget structure. While $5.1 
billion in budgetary resources are directed toward aviation security 
within the budget of the TSA, the priority budget for public 
transportation is within the FEMA State and local programs account. The 
Transit Security Grant Program (TSGP) is the principal source of 
security assistance for transit agencies and these grant funds can do 
more to enhance security than additional funds directed to the Federal 
agencies. At a level of $250 million in fiscal year 2011, the 
commitment to surface transportation security does not register a fair 
comparison, even when including the TSA Surface Transportation account 
and excluding aviation security fees. The Congress seems to have locked 
Rail and Public Transportation Security grants into a budgetary pattern 
that is not based in any true evaluation of risk or need.
    As I have testified previously, a study released by APTA in 2010 
showed U.S. transit security needs nationwide at $6.4 billion. Despite 
billions of dollars already invested from Federal, State, and local 
sources, these needs persist as our understanding of risk, consequence, 
response and recovery has changed, and technology and operational 
approaches are also different today.
    Despite wide recognition of the risk to surface transportation and 
public transportation security, only $1.25 billion of the $3.4 billion 
authorized by the 9/11 act for public transportation security 
improvements has been appropriated. That legislation authorized $3.4 
billion and authorized additional funding for the security of rail 
carriers (freight, passenger, and commuter rail) over a 4-year period. 
Again, we find ourselves asking, why are important public 
transportation security needs going unfunded?
    In 2010, Americans took more than 10.2 billion transit trips. 
People use public transportation vehicles more than 35 million times 
each weekday. As previously stated, this is 18 times the number of 
daily boardings on the Nation's domestic airlines. The consequences of 
a successful terrorist attack on a single high-capacity urban rail 
system during peak travel time will result in a devastating number of 
fatalities and injuries. It will have a crippling affect on the economy 
of that entire metropolitan area, with a potential ripple effect 
nationwide. We cannot avoid talking about the consequences, as the 
resources are not being dedicated where our needs truly exist.
         transit security needs are real and require attention
    As we have stated before, and as the members of this subcommittee 
well know, authoritative sources have acknowledged that the risk to 
public transportation systems is real, and it has not diminished:
  --The GAO released a 2002 report stating ``about one-third of 
        terrorist attacks worldwide target transportation systems, and 
        transit systems are the mode most commonly attacked.''
  --In 2007, the GAO reported to the Congress that ``the 
        characteristics of some passenger rail systems--high ridership, 
        expensive infrastructure, economic importance, and location 
        (e.g., large metropolitan areas or tourist destinations)--make 
        them attractive targets for terrorists because of the potential 
        for mass casualties and economic damage and disruption.''
  --On February 29, 2008, the Office of Intelligence of TSA released a 
        report concluding that public transportation in America remains 
        vulnerable to terrorist attack. The report states: ``The volume 
        of previous attacks and recent plotting against mass transit 
        systems overseas demonstrates continued strong terrorist 
        interest in targeting this sector.'' The report further states 
        that: ``Previous rail attacks in Madrid, London, and Mumbai 
        could inspire terrorists to conduct similar attacks in the 
        United States.''
  --On September 30, 2009, the Honorable Michael E. Leiter, Director, 
        National Counterterrorism Center, testified in the Senate that 
        ``al-Qa`ida continues to pursue plans for Homeland attacks and 
        is likely focusing on prominent political, economic, and 
        infrastructure targets designed to produce mass casualties, 
        visually dramatic destruction, significant economic 
        aftershocks, and/or fear among the population. The group also 
        likely remains interested in targeting mass transit systems, 
        and other public venues, viewed as relatively soft targets as 
        evidenced by past al-Qa`ida attacks in London.''
  --The federally funded and chartered, independent Mineta 
        Transportation Institute has collected data on worldwide terror 
        incidents and found more than 2,000 separate attacks on surface 
        transportation--1,223 involving bombs and incendiaries--since 
        1970. These attacks caused 6,190 deaths and approximately 
        19,000 injuries.
    This history calls for continued vigilance and continued 
investments in surface transportation security.
            grant program structure and other resource needs
    We once again ask that the subcommittee include language that 
directs DHS to award funds directly to transit agencies and prohibits 
DHS from imposing a local match requirement, consistent with 
congressional intent expressed in the conference report of the 9/11 
act. APTA has no objection to language included in the fiscal year 2010 
conference report which directed FEMA to allow transit agencies to 
permit States to act as subgrantees. We believe that as long as transit 
agencies affirmatively choose to have their grants administered by 
their State administrative agencies, they should have that option.
Fiscal Year 2011 TSGP Grant Guidance
    It is important that we emphasize here that there exist significant 
concerns among our Nation's transit providers concerning the direction 
of the draft fiscal year 2011 TSGP Grant Guidance. APTA believes that a 
proposal to shift the grant program to an approach that targets a pre-
designated list of specific critical infrastructures is ill-advised, 
and would preclude important system-wide security improvements, while 
also undermining the regional collaboration that exists under the 
current grant program. APTA and its members have urged the TSA to 
reconsider this proposal.
                               conclusion
    Mr. Chairman, once again we find ourselves calling attention to 
another major terrorist attack against mass transit riders. The deadly 
bombing of the subway in Minsk, Belarus has left security experts 
confused given the lack of significant ethnic or religious divides, nor 
history of violent political upheaval. Yet, unknown terrorists chose to 
set off a bomb in a crowded metro station in Minsk last week killing 12 
people and wounding more than 150. We urge the subcommittee to never 
forget the several foiled plots against U.S. public transportation 
systems and the attacks on Madrid's commuter trains, on London's 
subways, or the seven bombs on Mumbai's commuter trains. Those three 
international incidents alone resulted in 452 deaths and 3,000 
injuries. We should not ignore those potential incidents that we have 
been fortunate to thwart here in the United States and we urge the 
Congress to recognize the need for continued vigilance in surface 
transportation security, by appropriating funds consistent with the 
levels authorized under the 9/11 Commission Act.
    I thank the subcommittee for this opportunity to testify and we 
look forward to working with you and the Congress to advance our mutual 
goals of safety and security for the traveling public.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association
                                overview
    Mr. Chairman, thank you for this opportunity to provide testimony 
to the subcommittee on the fiscal year 2011 funding needs for public 
transportation security within the budgets of the Federal Emergency 
Management Agency (FEMA) State and local grants program, and the 
Transportation Security Administration (TSA), Transportation Sector 
Network Management (TSNM) Mass Transit Division, and throughout the 
Department of Homeland Security (DHS). The American Public 
Transportation Association (APTA) asks the subcommittee to provide 
appropriations for the fiscal year 2011 Transit Security Grant Program 
(TSGP) in the amount of $1.1 billion, the level authorized under the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Public 
Law 110-53). We appreciate the funding that this subcommittee has 
provided, but at the recent levels, grant allocations to regions, and 
ultimately the awards to the individual transit agencies have limited 
what projects can be pursued and implemented. We urge the Congress to 
find the resources to appropriate the levels authorized in the 9/11 
act.
                               about apta
    APTA is a nonprofit international association of nearly 1,500 
public and private-member organizations, including transit systems and 
commuter, intercity, and high-speed rail operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions; transit associations and state departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient, and economical public transportation services and 
products. More than 90 percent of the people using public 
transportation in the United States and Canada are served by APTA-
member systems. In accordance with the National Infrastructure 
Protection Plan, APTA is recognized by DHS as serving in the capacity 
of the Mass Transit Sector Coordinating Council.
          greater investments in transit security are required
    As I will discuss later in my testimony, it is well established 
that transportation and public transportation specifically, continue to 
face significant security risks. One only needs to look to the recent 
attacks in Moscow and the ongoing investigation and prosecution of 
conspirators in New York to be reminded of this. Safety and security 
have always been the top priority of the public transportation 
industry. Since 9/11, transit systems have taken many steps to further 
improve security. Public transit agencies with state and local 
governments, have invested billions of dollars on security and 
emergency preparedness programs. While we recognize that as an open 
public infrastructure there are limitations on what specific steps can 
be taken to secure transit facilities and operations, I want to 
emphasize that there are still many steps that must be taken and many 
security improvements that can be made to improve the security of our 
systems and enhance the safety of our Nation's transit riders.
    In 2009, APTA conducted a new survey of U.S. transit agencies to 
update their security investment needs and their experience with the 
current program. The results of the survey demonstrate that security 
investment needs persist nationwide, with total needs for all transit 
agencies exceeding $6.4 billion. Our previous survey in 2004 identified 
needs in excess of $6 billion. Despite billions of dollars already 
invested from Federal, State, and local sources, it is important to 
understand that facilities have changed and expanded; our understanding 
of risk, consequence, response, and recovery has changed; and 
technology and operational approaches are also different than they were 
in 2004.
    The Congress recognized the need to enhance the focus of DHS on 
surface transportation and public transportation security when it 
enacted the 9/11 act. That legislation authorized $3.4 billion for 
public transportation security improvements, and authorized additional 
funding for the security of rail carriers (freight, passenger, and 
commuter rail) over a 4-year period. And yet, over the period covered 
by the 9/11 act authorizations, only $1.25 billion of the $3.4 billion 
authorized has been appropriated, and even less has ultimately been 
directed in grants to transit agencies. This is simply unacceptable. We 
must increase investments and meet our security needs now--before we 
are forced to ask the question ``what could have been done?''
    The legislation also set in place a number of the structural 
elements that APTA and the Nation's transit systems continue to 
emphasize as priorities, including broad eligibility for capital and 
operational improvements, a rejection of a ``one-size fits all'' 
approach to transit security, a recognition of the open nature of 
transit facilities and services, interagency coordination between DHS 
and the Department of Transportation (DOT), consultation and 
coordination at all levels of government and with industry 
stakeholders, and support for information sharing and intelligence 
analysis, standard development, and research and technology 
development.
         transit security needs are real and require attention
    As we have stated before, and as the members of this subcommittee 
well know, authoritative sources have acknowledged that the risk to 
public transportation systems is real, and it has not diminished:
  --The Government Accountability Office (GAO) released a 2002 report 
        stating ``about one-third of terrorist attacks worldwide target 
        transportation systems, and transit systems are the mode most 
        commonly attacked.''
  --In 2007, the GAO reported to the Congress that ``the 
        characteristics of some passenger rail systems--high ridership, 
        expensive infrastructure, economic importance, and location 
        (e.g., large metropolitan areas or tourist destinations)--make 
        them attractive targets for terrorists because of the potential 
        for mass casualties and economic damage and disruption.''
  --On February 29, 2008, the Office of Intelligence of TSA released a 
        report concluding that public transportation in America remains 
        vulnerable to terrorist attack. The report states: ``The volume 
        of previous attacks and recent plotting against mass transit 
        systems overseas demonstrates continued strong terrorist 
        interest in targeting this sector.'' The report further states 
        that: ``Previous rail attacks in Madrid, London, and Mumbai 
        could inspire terrorists to conduct similar attacks in the 
        United States.''
  --On September 30, 2009, the Honorable Michael E. Leiter, Director, 
        National Counterterrorism Center testified in the Senate that 
        ``al-Qa`ida continues to pursue plans for Homeland attacks and 
        is likely focusing on prominent political, economic, and 
        infrastructure targets designed to produce mass casualties, 
        visually dramatic destruction, significant economic 
        aftershocks, and/or fear among the population. The group also 
        likely remains interested in targeting mass transit systems, 
        and other public venues, viewed as relatively soft targets as 
        evidenced by past al-Qa`ida attacks in London.''
  --The TSA Office of the Inspector General released a March 2010 
        report highlighting the need for greater attention by TSA in 
        surface transportation emergency planning and response 
        capabilities.
  --The federally funded and chartered, independent Mineta 
        Transportation Institute has collected data on worldwide terror 
        incidents and found more than 2,000 separate attacks on surface 
        transportation--1,223 involving bombs and incendiaries--since 
        1970. These attacks caused 6,190 deaths and approximately 
        19,000 injuries.
    DHS has the responsibility to ensure the safety and security. All 
of the official government and independent analyses of risk and threat 
cite transportation modes as a potential target for terrorism. As a 
result, it is the mission of the TSA to protect ``the Nation's 
transportation systems to ensure freedom of movement for people and 
commerce.'' We couldn't agree more vigorously with that mission 
statement! However, one only needs to look at the TSA Web site to 
realize that the agency continues to focus in a sizable and 
disproportionate manner on one mode of transportation above all others. 
There is no mention of surface transportation anywhere to be found at 
the forefront of the TSA Web site.
    Let me be very clear--and we have been consistent in our views on 
this--no one questions the security requirements of our Nation's 
aviation system. But the scope and scale of the disproportionate 
attention and dedication of resources to one mode of travel over all 
others is hard to ignore. In 2009, Americans took more than 10.2 
billion transit trips. People use public transportation vehicles more 
than 35 million times each weekday. This is 18 times the number of 
daily boardings on the Nation's domestic airlines. Make no mistake; a 
successful terrorist attack on a single high capacity urban rail system 
during peak travel time could result in a devastating number of 
fatalities and injuries. In addition, it would have a crippling affect 
on the economy of that entire metropolitan area, with a potential 
ripple effect nationwide. We do not want to scare anyone, but at the 
same time we cannot continue to avoid talking about the consequences, 
as the resources are not being dedicated where our needs truly exist.
             other program requirements and resource needs
    We further ask that you again include language that directs DHS to 
award funds directly to transit agencies and prohibits DHS from 
imposing a local match requirement, consistent with congressional 
intent expressed in the conference report of the 9/11 act. APTA has no 
objection to language included in last year's conference report which 
directed FEMA to allow transit agencies to permit States to act as 
subgrantees. We believe that as long as transit agencies affirmatively 
choose to have their grants administered by their State administrative 
agencies, they should have that option.
    We are pleased that many steps have been taken at FEMA and TSA to 
improve the TSGP application and award process, and we appreciate the 
attention that the Congress has placed on the difficulties inherent in 
this process. However, we urge your continued oversight and attention 
to opportunities to simplify and streamline the process. We are hopeful 
that the oversight efforts of the Congress, which have led to recent 
proposed reforms in the TSGP grant process, will achieve the desired 
results and expedite the delivery of funds to transit agencies with 
security improvement needs.
    In addition to grant funding, we urge the Congress to provide 
$600,000 to TSA TSNM Mass Transit Division for the continued operations 
of the Public Transit Information Sharing Analysis Center (ISAC). 
Funding for this program was authorized in the 9/11 act bill under 
section 1410 (d), which provides for the sharing of security 
information between transit agencies and DHS. The ability to share 
vital information is crucial in preventing and mitigating potential 
terrorist attacks. We have been advised by TSA that resources for the 
Public Transit ISAC are part of the TSA budget for TSNM. Further, a 
joint industry/government working group formed under the auspices of 
the Mass Transit SCC/Government Coordinating Council is currently 
refining a proposal for security information sharing that would look to 
the PT-ISAC to becoming a permanent, expanded system that would 
coordinate the dissemination of all relevant security information to 
the public transit industry.
    We also urge the Congress to provide $500,000 to DHS for the 
development of transit security standards. Over the last several years, 
APTA has worked closely with the DOT, DHS, and industry leaders to 
develop standards that help transit agencies use available resources as 
effectively as possible. It is our understanding that resources are 
factored into the TSA budget for this continuing effort, but we urge 
the subcommittee to support the TSA in this regard. The ISAC and 
security standards are two important national programs that, although 
modest in funding needs, can significantly enhance transit security at 
the local level.
    Finally, with regard to technology research and development, 
resource allocation issues within DHS have failed to adequately address 
the research and development needs of transit. In September 2008, the 
Mass Transit SCC Security Technology Working Group issued draft 
recommendations which identified concerns over the lack of a formal 
structure that brings the Federal Government and transit industry 
together to discuss transit security technology priorities, needs and 
areas of potential interest for technology advancement and research. 
There is a general view that TSA Research and Development, and DHS 
Science and Technology do not conduct adequate early outreach with the 
industry to determine needs ahead of actual technology development and 
deployment efforts. Transit security professionals believe that early 
and active engagement of industry could lead to a better understanding 
of varying transit agency needs, as well as better research and 
development overall.
    Finally, resources such as technical assistance and the like may be 
necessary for support of transit industry efforts in the area of 
cybersecurity. Concerns over cybersecurity have increased across the 
Federal Government and throughout the country over recent years, and 
transit agencies are no different. As significant users of power and 
computerized control systems, cybersecurity will remain a significant 
concern for an industry responsible for the safe and secure movement of 
35 million daily riders.
                               conclusion
    Mr. Chairman, the recent suicide bomb attacks in Moscow provided an 
unwanted but graphic reminder of the threats our industry continues to 
face. We cannot forget the attacks on Madrid's commuter trains, on 
London's subways, or the seven bombs on Mumbai's commuter trains. Those 
three incidents alone resulted in 452 deaths and 3,000 injuries. We 
should also not ignore those potential incidents that we have been 
fortunate to thwart. More details have emerged about the plans involved 
in the al-Qaeda-inspired New York subway bomb plot, and the reports 
surrounding this plot alone should emphasize the need for continued 
vigilance in surface transportation security.
    I thank the subcommittee for this opportunity to testify and we 
look forward to working with you and the Congress to advance our mutual 
goals of safety and security for the traveling public.
                                 ______
                                 
 Attachment, APTA Survey of United States Transit System Security Needs
                     summary and principal findings
    The American Public Transportation Association (APTA) conducted a 
survey of 35 of its transit agency members during 2009 and early 2010 
to determine agency security funding requirements, grants received in 
prior fiscal years, and the projects advanced through prior year 
grants. The participating transit systems were selected from APTA 
members who are eligible recipients of Federal Emergency Management 
Agency (FEMA) Transit Security Grant Program (TSGP) funding. Additional 
estimates of national needs were expanded beyond the survey respondents 
based on the portion of transit operations represented by the 
responding systems in six categories that represent equipment, 
infrastructure, and activity that requires security efforts. The 
principal findings of that survey are:
  --Total security needs far surpass funding provided to date. Transit 
        agency security-related investment needs are $6.4 billion. This 
        amount is a 5-year estimate and includes $4.4 billion for 
        transit agency security-related capital investment plus $2 
        billion for security-related personnel and other security-
        related operational expenses. Federal funding provided in 
        fiscal year 2010 for public transportation security was $253 
        million.
  --Capital security needs remain a top priority, but many agencies 
        cite operating needs. Respondents to the survey estimated 
        capital needs as exceeding operating needs by more than a 3-to-
        1 ratio. Disparities in priorities between large and small 
        systems are indicative of the differences in infrastructure and 
        assets requiring protection. Security operations needs are more 
        likely to comprise a larger percentage of need for smaller 
        systems.
  --Transit security priorities vary from agency to agency. Survey 
        responses demonstrate that security priorities are unique to 
        each individual agency, just as each individual agency's 
        infrastructure, operations and governance is unique. Transit 
        agencies seek more flexibility in the uses of funds and a 
        streamlined application process. A broad list of eligible 
        projects formed the basis for the National Transit Systems 
        Security Act of 2007 as contained within the Implementing 
        Recommendations of the 9/11 Commission Act (Public Law 110-53).
  --Transit security resources are required beyond grant funds. Beyond 
        the grant funding sought by transit agencies, resources are 
        needed in a variety of components within the Department of 
        Homeland Security (DHS), including funding for information 
        sharing and intelligence, security standards development, 
        research and technology development, technical assistance, and 
        the broader approaches towards cybersecurity and resiliency 
        (all-hazards response).
       apta survey of united states transit system security needs
    APTA conducted a survey of 35 of its transit agency members during 
2009 and early 2010 to determine agency security funding requirements, 
grants received in prior fiscal years, and the projects advanced 
through prior year grants. The participating transit systems were 
selected from APTA members who are eligible recipients of FEMA TSGP 
funding. The sample of systems operates 43.0 percent of all transit 
vehicles that were reported in the Federal Transit Administration (FTA) 
National Transit Database in 2008, operates 52.4 percent of all revenue 
vehicle miles, operates 64.0 percent of all passenger stations and 62.9 
percent of all rail transit right-of-way measured by directional-route 
miles, and carries 71.8 percent of all passenger trips and 68.1 percent 
of all passenger miles of travel.
                         transit funding needs
    Respondents were asked to report their 5-year security funding 
needs for capital and for operations. Table 1 shows those needs as 
reported by the participating agency and expanded to include other 
transit agencies.

                                    TABLE 1--FIVE-YEAR SECURITY FUNDING NEEDS
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                              Five-year funding needs
              Transit systems included in estimate               -----------------------------------------------
                                                                      Capital        Operating         Total
----------------------------------------------------------------------------------------------------------------
Respondents to survey for these questions.......................           2,204             655           2,859
Systems eligible for TSGP funds.................................           3,286           1,518           4,804
All transit agencies in any location............................           4,419           2,018           6,437
----------------------------------------------------------------------------------------------------------------

    The security funding needs over the next 5 years for all transit 
systems are $6.4 billion, $4.4 billion for capital, and $2.0 billion 
for operating. Among all transit systems eligible for TSGP funding 
these needs are $4.8 billion, $3.3 billion for capital, and $1.5 
billion for operations.
    These needs are based on the 34 survey respondents who were able to 
forecast capital funding needs and the 33 who were able to forecast 
operating funding needs. Respondents which provided needs estimates 
found a total security-related funding need of $2.9 billion for their 
systems, $2.2 billion for capital uses, and $0.7 billion for 
operations. The responses were expanded to estimate needs for other 
transit agencies. The expansions were based on the portion of transit 
operations represented by the responding systems in six categories that 
represent equipment, infrastructure, and activity that requires 
security efforts. These categories are the following: total vehicles 
operated, vehicle miles in revenue service, unlinked passenger trips, 
passenger miles, stations, and directional miles of rail routes. Data 
are taken from the 2008 National Transit Database and APTA's 2009 
Public Transportation Fact Book.
    APTA published a survey of transit systems security needs in April 
2004. That survey was used to project security funding needs for the 
entire transit industry. Capital needs to ``maintain, modernize, and 
expand'' the security function were $5.2 billion without a specified 
time period. Annual operating needs were $800 million which included 
existing security operating expenses. Those needs are most comparable 
to the $6.4 billion need for all agencies for the next 5 years 
estimated in this survey.
            security funds received during the past 3 years
    Respondents were asked the amount of funds they received during 
each of fiscal years 2006, 2007, and 2008 for security-related projects 
regardless of the source. Because these amounts are not expected to be 
of a similar amount for nonparticipating systems in any consistent 
manner, no funding estimates are made for nonparticipating systems. 
Transit security grants were also distributed during fiscal years 2003, 
2004, and 2005; however, this survey limited the request to the most 
recent 3 fiscal years for ease of reporting. Data regarding fiscal year 
2009 grants was not available at the time of this survey.

                            TABLE 2--SECURITY PROJECT FUNDING FOR SURVEY PARTICIPANTS
                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   Funding amount for participating systems only
                                                                 -----------------------------------------------
                         Funding source                             Fiscal year     Fiscal year     Fiscal year
                                                                       2006            2007            2008
----------------------------------------------------------------------------------------------------------------
TSGP grants.....................................................           103.8           146.3           143.2
Agency match for TSGP grants....................................             0.6             5.5             4.8
State, local security grants....................................            46.6            41.5            41.1
Agency match for State, local grants............................            26.7            19.7            18.2
                                                                 -----------------------------------------------
      Total security funding....................................           177.7           213.0           207.3
----------------------------------------------------------------------------------------------------------------

    use of funds defined by project effectiveness group descriptions
    FEMA groups security projects into five categories termed project 
effectiveness group descriptions (PEGD) which are used to prioritize 
investments. The five groups and the project types they include, as 
described in the fiscal year 2010 Transit Security Grant Program 
Guidance and Application Kit December 2009, are:
  --Priority group A, ``training, operational deterrence, drills, and 
        public awareness activities'' which includes: developing 
        security plans; training (basic before follow-on) for security 
        awareness, DHS-approved behavior recognition detection courses, 
        counter-surveillance and immediate actions for security 
        threats/incidents; operational deterrence for canine teams, 
        mobile explosives screening teams, and anti-terrorism teams; 
        crowd assessment; and public awareness.
  --Priority group B, ``multi-user high-density key infrastructure 
        protection'' which includes: anti-terrorism security 
        enhancement measures, such as intrusion detection, visual 
        surveillance with live monitoring, alarms tied to visual 
        surveillance system, recognition software, tunnel ventilation 
        and drainage system protection, flood gates and plugs, portal 
        lighting, and similar hardening actions for: tunnel hardening; 
        high-density elevated operations, multi-user high-density 
        stations, and hardening of supervisory control and data 
        acquisition systems.
  --Priority group C, ``single-user high-density key infrastructure 
        protection'' which includes: anti-terrorism security 
        enhancement measures for high-density stations, and high-
        density bridges.
  --Priority group D, ``key operating asset protection'' which 
        includes: physical hardening/security of control centers; 
        secure stored/parked trains, engines, and buses; bus/rail 
        yards; and maintenance facilities.
  --Priority group E, ``other mitigation activities'' which includes 
        interoperable communications, evacuation plans, and anti-
        terrorism security enhancement measures for low-density 
        stations.
    In addition, larger systems in high-risk areas meeting activity 
criteria are eligible for funding for operational activities with 
Operational Package (OPack) funds.
    Table 3 reports the number of agencies in the sample which received 
TSGP funds and matching funds for use for each PEGD category for fiscal 
years 2006, 2007, and 2008 in the columns to the left and the use of 
funds from other sources in similar categories for the same years in 
the columns to the right. Thirty-five systems answered each question.

                                     TABLE 3--USE OF FUNDS BY PEGD CATEGORY
----------------------------------------------------------------------------------------------------------------
                                                 Use of TSGP--number of grants      Use of non-Federal funding
                                                          by  category           sources, number of grants using
    Project effectiveness group description    ---------------------------------        funds by  category
                   category                                                     --------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                year 2006  year 2007  year 2008  year 2006  year 2007  year 2008
----------------------------------------------------------------------------------------------------------------
A. Training, operational deference, drill,              8         24         20          6          8          8
 public awareness.............................
B. Multi-user high-density key infrastructure          12         13         16          8          8          8
 protection...................................
C. Single-user high density key infrastructure          7          5          5          5          5          7
 protection...................................
D. Key operating asset protection.............         19         16         11         11         12         10
E. Other mitigation activities................          5          6          7          7          9          8
Operational Packages (OPacks).................  .........          8          5          5          6          5
----------------------------------------------------------------------------------------------------------------

                  use of funds by project descriptions
    Participating transit systems were asked an open-ended question to 
list examples of the types of projects for which they used security 
funding. The question was repeated for each year for both TSGP and 
matching funds and State and local funding. Table 4 counts those 
answers in generalized categories into which they appeared to fit. Not 
all answers are included and many participants did not answer for each 
year. This table is thus a list of project types and should not be 
considered a count of the number of each project type actually 
undertaken.

                           TABLE 4--GENERAL TYPES OF PROJECTS REPORTED BY PARTICIPANTS
----------------------------------------------------------------------------------------------------------------
                                                 Projects implemented--categorized by general types (open-ended
                                                  question, not all systems answered question for each year and
                                                                    not all uses were listed)
                                               -----------------------------------------------------------------
                Type of Project                     TSGP and matching funds          State and local funding
                                               -----------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                year 2006  year 2007  year 2008  year 2006  year 2007  year 2008
----------------------------------------------------------------------------------------------------------------
Closed circuit TV and CCTV support............         15          7         10          7          7          7
Access control................................          5          2          3          2          3          2
Intrusion/perimeter monitoring/protection.....          2          6          4          2          4          2
Chemical detection equipment..................          2  .........  .........  .........  .........  .........
Awareness training............................          4          1          2  .........  .........  .........
Behavior recognition software.................          1  .........  .........  .........  .........  .........
K-9 related equipment/training................          1  .........  .........          1          1          2
Training and exercises........................          7         14         15  .........  .........          1
Public awareness..............................          1          2          3  .........  .........  .........
Communications improvements and equipment               3  .........          2          2          1          5
 upgrades.....................................
Tunnel communications.........................          1  .........  .........  .........  .........  .........
Security planning.............................          1          1          3  .........          1  .........
Infrastructure protection/fencing/lighting....          1  .........  .........          2          2          3
Control center and control equipment                    2          1  .........  .........  .........  .........
 redundancy/improvement.......................
Tunnel protection and tunnel access equipment.          2          3          2  .........  .........  .........
Vehicle location system.......................          1  .........  .........  .........  .........  .........
Portal security...............................          1  .........          2  .........  .........  .........
Station security..............................          1          1          1          1          1  .........
Passenger information systems.................  .........          1  .........  .........  .........  .........
Risk assessment...............................  .........          1          3  .........  .........  .........
License plate recognition equipment...........  .........  .........          1  .........  .........  .........
Electronic security...........................  .........  .........          1  .........  .........  .........
Guards, police................................  .........  .........  .........          4          4          4
----------------------------------------------------------------------------------------------------------------

                     use of funds vs. actual needs
    It is important to note that survey responses on funding uses 
should not be seen as indicators of transit agency security funding 
priorities. Instead they are provided to simply demonstrate where 
funding has been spent. APTA and many of its members continue to have 
concerns that the categorical prioritization of funding within the TSGP 
unnecessarily restricts agencies from applying for security grants for 
projects they would otherwise deem more important to their specific 
agency security mission. The statutory provisions of the Implementing 
Recommendations of the 9/11 Commission Act which outlined the eligible 
use of funds did so in a broad and generic manner in order to specify 
the wide range of eligible uses, and not in the restrictive and 
prioritized manner prescribed by TSGP grant guidance.
          respondents views on the administration of the tsgp
    [Note: Changes to TSGP administration have been implemented in 
response to grantee concerns since APTA's survey was conducted, some of 
which are reflected in the fiscal year 2010 Grant Guidance.]
    The administration of the TSGP has been of significant concern to 
the transit industry over the last several years, with changes to 
policy and priorities occurring each year creating challenges for 
grantees to implement their own security budgets, plans and programs in 
a consistent manner. APTA's survey asked open-ended questions regarding 
grantees views on the TSGP administration.
    Many agencies sought additional availability of funds for 
operational security needs, while other agencies felt the program 
should be limited to capital security improvements. It was widely 
viewed that TSGP grants should be comprised of 100 percent Federal 
funding, so as not to jeopardize important security projects because of 
other budget limitations. Multiple comments were received calling for 
operating and maintenance costs of TSGP funded equipment to be 
considered an eligible expense.
    The grant process timeline was widely perceived as too long and 
time consuming given the amount of funds available to agencies. Early 
release of grant guidance was a recommendation that would allow for 
timelier grant application submission.
    Concerns were expressed that the TSGP did not allow ``pre-award'' 
authority. This inconsistency with Federal Transit Program grants not 
only added to confusion in agency dealings with FEMA and the 
Transportation Security Administration (TSA), but also had the 
potential to lead certain project expenditures to be ineligible because 
of relatively minor administrative details, thereby affecting the 
transit agency's ability to expend the funds as programmed.
    A variety of administrative process recommendations were made in 
the comments section, such as urging DHS to follow the FTA practice of 
utilizing annual audits for agencies with certified grantees business 
systems and practices. Many of the paperwork requirements and record 
keeping processes in place were seen as duplicative.
    Additional projects that have been excluded or overly restricted 
include consequence management projects, continued sustenance and life-
cycle maintenance of security projects, interoperable communications, 
and redundant power systems. Current allocations for management and 
administration are not sufficient for long term capital endeavors. 
Agencies require more flexibility in the assignment of in house 
flagging and escort crews for work tied to security projects. Some 
agencies argued for allowable costs to include program administration 
and project management. Several respondents argued that the guidance 
was unnecessarily restrictive as to the use of funds, since threats and 
technology are regularly subject to change. As well, needs vary from 
transit agency to transit agency according to inherent risk exposures 
and current state of infrastructure and technological applications.
    Many agencies commented that operational funding should be 
available for projects and purposes other than the currently defined 
OPacks. Not all transit agencies control their own sworn law-
enforcement, and as such often contract for services--often with 
private contractors or sworn forces of surrounding jurisdictions. The 
unavailability of funds for these purposes is seen as an unnecessary 
restriction.
    Some agencies felt that the current grouping of agencies into tiers 
did not adequately correlate their tier to their risk, due to perceived 
unique regional security concerns. Smaller systems complained that 
despite their eligibility under the tier system, they either had not 
been successful at obtaining grant funding. Some smaller agencies felt 
that minimum project amounts should be eliminated.
    The wide variety of comments from agencies supports APTA's 
consistent call for less restrictive security grants and for a process 
that avoid the one-size-fits-all approach.
           other security needs not identified in this survey
    The funding needs and uses identified through this survey do not 
include Department-centric budgetary resources, such as those required 
for intelligence and information sharing, security standards 
development, and research and development.
Information and Intelligence
    A high priority for the transit industry in the area of information 
sharing and intelligence is the continuation of a small but critical 
amount of annual funding for the annual maintenance of the Public 
Transportation Information Sharing and Analysis Center (PT-ISAC). 
Established in response to Presidential Decision Directive 63 and 
Homeland Security Presidential Directive 7 (HSPD-7), the PT ISAC is 
seen by transit security professionals as a highly valuable interactive 
resource for the dissemination and sharing of industry specific 
information and intelligence. A joint industry/government working group 
formed under the auspices of the Mass Transit Sector Coordinating 
Council (SCC)/Government Coordinating Council (GCC) is currently 
refining a proposal for security information sharing that would look to 
the PT-ISAC to becoming a permanent, expanded system that would 
coordinate the dissemination of all relevant security information to 
the public transit industry.
Security Standards
    A similar high priority for the industry requiring continued, but 
relatively small amounts of funding is the transit security standards 
development program. Produced through the consensus-based process 
recommended by the American National Standards Institute and fully 
inclusive of Federal stakeholders including the TSA, FTA, and Federal 
Railroad Administration, the transit security standards program serves 
an extremely important guiding role for future policies and investments 
in transit security.
Research and Development
    Additionally, resource allocation issues within DHS have failed to 
adequately address the research and development needs of transit. In 
September 2008, the Mass Transit SCC Security Technology Working Group 
issued draft recommendations which identified concerns over the lack of 
a formal structure that brings the Federal Government and transit 
industry together to discuss transit security technology priorities, 
needs, and areas of potential interest for technology advancement and 
research. There is a general view that TSA Research and Development, 
and DHS Science and Technology do not conduct adequate early outreach 
with the industry to determine needs ahead of actual technology 
development and deployment efforts. Transit security professionals 
believe that early and active engagement of industry could lead to a 
better understanding of varying transit agency needs, as well as better 
research and development overall.
Cybersecurity
    Also, resources such as technical assistance and the like may be 
necessary for support of transit industry efforts in the area of 
cybersecurity. Concerns over cybersecurity have increased across the 
Federal Government and throughout the country over recent years, and 
transit agencies are no different. As significant users of power and 
computerized control systems, cybersecurity will remain a significant 
concern for an industry responsible for the safe and secure movement of 
35 million daily riders.
Technical Support
    Since September 11, 2001, the FTA initially and DHS subsequently 
have offered technical support from time to time to assist transit 
agencies in the ongoing development and strengthening of their security 
plans, processes, procedures and resources. This level of Federal 
support continues to be an imperative need and necessitates DHS to 
ensure that such technical assistance is appropriately funded.
Resiliency and All-Hazards
    Finally, as DHS and many others in the homeland security policy 
arena discuss issues of resiliency and ``all hazards'' approaches to 
security and emergency management policy, transit agencies are 
increasingly looked to as instruments for disaster response and 
evacuation, and as such have repeatedly responded to major incidents 
ranging from 9/11 to Hurricanes Katrina and Rita. Views on the 
resources made available to the Department for its overall budget 
should not overlook the potential transit needs in ``all-hazards'' 
response to the resiliency question.
            about public transportation in the united states
    The United States transit industry carries more than 10 billion 
riders a year for more than 50 billion passengers miles. In 2008, 7.2 
million people used transit as their primary means of commuting to 
work, 23 percent more than commuted on transit in 2000.
    Transit service is provided by more than 387,000 employees 
operating 137,000 vehicles in the peak service period each weekday. 
Transit rail cars, buses, and vans provide 4.6 billion miles of revenue 
service in a year. Twenty-six commuter rail systems, 15 heavy rail 
systems, and 35 light rail systems provide service more than 11,270 
directional miles of routes, and along with bus service stop at 4,500 
stations and numerous street locations.
    APTA's Security Affairs Steering Committee serves in the role of 
the Mass Transit SCC.
                                 ______
                                 
           Letter From Marine Conservation Biology Institute
                                                    April 19, 2011.
Hon. Mary L. Landrieu, 
Chairman, Subcommittee on Homeland Security, Washington, DC.
    Dear Madam Chairwoman and Members of the Subcommittee: Marine 
Conservation Biology Institute (MCBI), based in Bellevue, WA, is a 
nonprofit conservation organization whose mission is to protect ocean 
ecosystems. We use science to identify places in peril and advocate for 
bountiful, healthy oceans for current and future generations. I wish to 
thank the members of the Homeland Security Appropriations Subcommittee 
for the opportunity to submit written testimony on the fiscal year 2012 
appropriations for the United States Coast Guard (USCG). MCBI 
recommends $10.791 billion for the USCG in fiscal year 2012. This 
amount would reinstate fiscal year 2010 funding levels, with an 
additional $2 million to combat marine debris as mandated by law.
    The USCG is a multi-mission agency, stretched by many demands. MCBI 
supports the USCG in their efforts to reach their goals in providing 
maritime safety, security, mobility, national defense, and protection 
of natural resources. The fiscal year 2012 President's request has 
decreased the USCG's overall budget by more than $450 million, 
including a decrease of $147 million for marine environmental 
protection, one of the USCG's 11 missions. We are concerned about this 
decrease and what it portends in terms of the further degradation our 
oceans.
                             marine debris
    Marine debris has become one of the most widespread pollution 
problems affecting the world's oceans and coasts. As highlighted by the 
``Great Pacific Garbage Patch'' in the North Pacific Ocean, and garbage 
patch in the Atlantic Ocean, marine debris is a growing problem that is 
manifesting itself in all United States waters, including in Hawaii, 
Alaska, Louisiana, and the Caribbean. Research has shown that debris 
seriously effects the marine environment, marine wildlife, the economy, 
and human health and safety.
    Marine debris harms marine and coastal communities by damaging 
marine habitat like coral reefs, transporting non-native and invasive 
species to new habitats, causing navigational hazards and vessel 
damage, and harming and entangling wildlife. Some of the most common 
types of marine debris are discarded or lost fishing lines and nets, 
household plastics such as disposable lighters, six-pack rings, plastic 
bags, and Styrofoam pellets. The number of marine debris-related 
entanglement deaths of endangered and threatened seals, sea turtles, 
and seabirds continues to grow. For example, entanglement in debris is 
major cause of death for Hawaiian monk seals (pop. estimate: <1,200).
    To combat marine debris, the Congress responded in a bipartisan 
manner and enacted the Marine Debris Research, Prevention, and 
Reduction Act in 2006 which established national efforts to identify, 
assess, reduce, and prevent marine debris and its effects on the marine 
environment. The National Oceanic and Atmospheric Administration (NOAA) 
and the USCG work together to undertake these activities. The USCG's 
marine debris efforts fall under its marine environmental protection 
mission, 1 of 11 missions.
    The USCG plays a crucial role combating marine debris by monitoring 
and enforcing compliance with MARPOL Annex V and the Act to Prevent 
Pollution from Ships. Under this authority, the USCG monitors discharge 
of waste from ships and oversees port waste receptor facilities. In 
addition, the USCG provides critical support and leadership for a 
variety of anti-marine debris activities. For example, the USCG has 
partnered primarily with NOAA, starting in 1998, to remove an estimated 
667 metric tons (mt) of marine debris (mostly derelict fishing gear) 
from the Northwestern Hawaiian Islands where marine debris kills 
endangered Hawaiian monk seals and seabirds. In 2009, NOAA and the USCG 
removed an estimated 68 mt of debris. With the recent earthquake in 
Japan, an influx of debris has been introduced to the marine 
environment. University of Hawaii scientists believe that we will start 
to see the impacts of this debris in the Hawaiian Islands in about 18 
months.
    The Marine Debris Act authorizes $10 million annually for NOAA's 
Marine Debris Program and $2 million for the USCG's marine debris 
efforts. NOAA has been level funded at $4 million since 2008, but the 
USCG has never requested nor received any direct funding for its marine 
debris efforts.
    As the Nation continues to deal with economic challenges, MCBI 
recognizes that allocating new funds for projects may be difficult. 
However, the economic costs of marine debris on our marine resources, 
tourism, human health and safety far outweigh the cost of marine debris 
removal activities. Therefore, we encourage the subcommittee to 
minimally reinstate the USGS funding levels to fiscal year 2010 enacted 
levels to maintain the service's operating capabilities, and include an 
additional $2 million for the USCG to meet its responsibilities under 
the Marine Debris Act. Adequate and sustained funding is needed to 
maintain and enhance the ability of the USCG to support current removal 
projects, develop best management practices, reduce derelict fishing 
gear, and conduct education and outreach measures.
    In summary, MCBI respectfully requests that the subcommittee 
augment the USCG funding to support the critical role it plays in 
fighting marine debris.
            Sincerely,
   William Chandler, Vice President for Government Affairs,
                             Marine Conservation Biology Institute.
                                 ______
                                 
   Prepared Statement of the National Association for Public Health 
                   Statistics and Information Systems
    The National Association for Public Health Statistics and 
Information Systems (NAPHSIS) welcomes the opportunity to provide this 
written statement for the public record as the Homeland Security 
Appropriations Subcommittee prepares its fiscal year 2012 
appropriations legislation.\1\ In 2005, Congress passed the REAL ID Act 
in response to the 9/11 Commission's recommendations that the Federal 
Government ensure a person ``is who they claim to be'' when applying 
for an official ID. Yet, 6 years later implementation remains stalled 
due to strained State budgets and a lack of Federal investment. As the 
nonprofit, national association for the 57 vital records offices that 
are critical partners in the security of our homeland, NAPHSIS 
recommends you provide the Federal Emergency Management Agency (FEMA) 
$100 million over a period of 3-5 years to modernize vital records in 
support of REAL ID through grants to States.
---------------------------------------------------------------------------
    \1\ NAPHSIS represents the 57 vital records jurisdictions that 
collect, process, and issue birth and death records in the United 
States and its territories, including the 50 States, New York City, the 
District of Columbia, and the five territories. NAPHSIS coordinates and 
enhances the activities of the vital records jurisdictions by 
developing standards, promoting consistent policies, working with 
Federal partners, and providing technical assistance.
---------------------------------------------------------------------------
  preventing fraud, identity theft, and terrorism through verification
    Prior to the terrorist attacks on the United States on September 
11, 2001, all but one of the terrorist hijackers acquired some form of 
identification document, some by fraud, and used these forms of 
identification to assist them in boarding commercial flights, renting 
cars, and other necessary activities leading up to the attacks. In its 
final report, the 9/11 Commission recommended implementing more secure 
sources of identification, stating that ``Federal Government should set 
standards for the issuance of birth certificates and sources of 
identification, such as driver's licenses. Fraud in identification 
documents is no longer just a problem of theft. At many entry points to 
vulnerable facilities, including gates for boarding aircraft, sources 
of identification are the last opportunity to ensure that people are 
who they say they are and to check whether they are terrorists.'' \2\
---------------------------------------------------------------------------
    \2\ The 9/11 Commission Report, Final Report of the National 
Commission on Terrorist Attacks upon the United States, July 2004, p. 
390.
---------------------------------------------------------------------------
    Heeding the recommendations of the 9/11 Commission, Congress 
enacted the REAL ID Act in May 2005. Among other provisions, the REAL 
ID Act and its corresponding regulations (6 CFR part 37) require that 
applicants for a driver's license present their birth certificate to 
the motor vehicle agency to validate their U.S. citizenship and their 
date of birth, and that birth certificates must be verified by the 
State. Section 37.13 of the identification standards regulations 
recommends that States through their departments of motor vehicles 
(DMV) should use the Electronic Verification of Vital Events (EVVE) 
system, operated by NAPHSIS, to verify birth certificates presented by 
applicants.
    EVVE is an online system operated by NAPHSIS that verifies birth 
certificate information. It provides authorized users at participating 
agencies with a single interface to quickly, reliably, and securely 
validate birth and death information at any jurisdiction in the 
country. In so doing, no personal information is divulged to the person 
verifying information--EVVE simply relays a message that there was or 
was not a match with the birth and death records maintained by the 
State, city, or territory.
                     need for verification persists
    Many Federal and State agencies rely on birth certificates for 
proof of age, proof of citizenship, identification for employment 
purposes, to issue benefits or other documents (e.g. driver's licenses, 
Social Security cards, and passports), and to assist in determining 
eligibility for public programs or benefits (e.g., Medicaid). 
Unfortunately, there are cases where individuals have obtained birth 
certificates of deceased persons and assumed their identity, created 
fraudulent birth certificates, and altered the information on a birth 
certificate, as documented in a Department of Health and Human Services 
Office of Inspector General Report of 2000.\3\
---------------------------------------------------------------------------
    \3\ Department of Health and Human Services, Office of Inspector 
General, Birth Certificate Fraud, Sept. 2009 (OEI-07-99-00570).
---------------------------------------------------------------------------
    In 2009 and 2010, the Government Accountability Office (GAO) 
documented several cases in which investigators created fraudulent 
birth certificates and were able to obtain passports based upon the 
fraudulent records because the passport office did not verify the birth 
certificate information.\4\ Just recently, the Federal Bureau of 
Investigation arrested Khalid Ali-M Aldawsari for ``attempted use of a 
weapon of mass destruction''. When the FBI searched Aldawsari's 
apartment, agents discovered that Aldawsari had plans to obtain a 
forged U.S. birth certificate and obtain multiple drivers' licenses for 
the purpose of renting several different cars to carry out his attacks. 
Aldawsari recognized that birth certificates can be used to obtain 
multiple identification documents such as passports and driver's 
licenses.
---------------------------------------------------------------------------
    \4\ Government Accountability Office, Department of State: 
Undercover Tests Reveal Significant Vulnerabilities in State's Passport 
Issuance Process, Mar. 2009 (GAO-09-447) and State Department: 
Undercover Tests Show Passport Issuance Process Remains Vulnerable to 
Fraud, July 2010 (GAO-10-922T).
---------------------------------------------------------------------------
    Passport fraud prevention managers commenced using the EVVE system 
in March 2009 for birth certificate verifications. In their first 6 
weeks of use, there were two instances where the fraud prevention 
managers used the EVVE system to electronically verify the birth 
certificates, and EVVE returned a ``no match''. Upon further follow up 
with the vital records offices that ``issued'' the birth certificates 
it was determined that indeed the birth certificates presented with 
those passport applications were fraudulent. Based on these and other 
successes, NAPHSIS is working with the Department of State to integrate 
EVVE into the standard passport adjudication process.
            states need federal support to implement real id
    EVVE is now installed in 30 vital records jurisdictions and is used 
by select State DMVs and Medicaid Offices, the Social Security 
Administration, the Office of Personnel Management, and the Department 
of State fraud prevention managers in select jurisdictions. Users of 
EVVE are enthusiastic about the system, citing its capacity for:
  --Providing protection against the potential use of birth 
        certificates for fraudulent activities.
  --Improving customer service by facilitating rapid access to accurate 
        and verifiable vital record data in real-time.
  --Safeguarding the confidentiality of birth and death data.
  --Offering a secure mechanism for communication between agencies and 
        vital records offices via the Internet.
  --Easily integrating with current legacy systems that the Federal or 
        State agencies may already be using, and for serving as a user-
        friendly interface for agencies that seek a stand-alone query 
        system.
    NAPHSIS has completed upgrades to the EVVE system to meet the REAL 
ID requirements and is working to install EVVE in the remaining 27 
jurisdictions before the now extended, REAL ID deadline. NAPHSIS has 
also procured a data analysis and quality control tool that all 
jurisdictions can utilize to analyze their EVVE database for anomalies, 
inconsistencies, accuracy, and completeness. This tool and the analysis 
of EVVE data has been completed in 17 jurisdictions to-date.
    Despite EVVE's security, speed, and ease of use, the system is only 
as good as the underlying data infrastructure upon which it relies. 
Digitizing paper-based birth and death records, then cleaning and 
linking those records, will provide for secure, reliable, real-time 
identity verification using EVVE. Specifically,
  --The majority of the 57 vital records jurisdictions have electronic 
        birth records that extend back more than 7 decades. To 
        recognize EVVE's full potential to verify birth certificates, 
        100 percent of jurisdictions should have their records in 
        electronic form.
  --There are cases where an individual has assumed a false identity by 
        obtaining a birth certificate of a person who has died. 
        Therefore, it is also important that all jurisdictions' death 
        and birth records be linked to flag individuals who are 
        deceased and identify fraudulent birth documentation.
     recommended action: invest in infrastructure to facilitate id 
                              verification
    The jurisdictions' efforts to digitize, clean, and link vital 
records have been hindered by State budget shortfalls. In short, the 
jurisdictions need the Federal Government's help to complete building a 
secure data infrastructure and support identity verification required 
by REAL ID. Under the current authority established through REAL ID, we 
ask that Congress provide $100 million to FEMA to support a new grants-
to-States program for the purpose of modernizing vital records. 
Specifically, these funds would be used by vital records jurisdictions 
to digitize their birth records back to 1945, to clean these data to 
support electronic queries, and link birth and death records. We 
recommend the funding be appropriated over time according to one of two 
schedules:
  --Option 1.--$33 million per year over 3 years. This option would 
        provide roughly $580,000 in fiscal year 2012 to each vital 
        records jurisdiction, on average.
  --Option 2.--$20 million per year over 5 years, providing roughly 
        $350,000 in fiscal year 2012 to each vital records 
        jurisdiction, on average. The vital records modernization would 
        progress more slowly than under option 1, but the funding would 
        nevertheless significantly enhance the ability of States and 
        territories to support the goals of REAL ID.
    The terrorist attack the FBI thwarted in the apprehension of Khalid 
Ali-M Aldawsari brings to mind the September 11 tragedy, and reminds us 
of the need to secure official forms of identification. We feel 
strongly that an investment of $100 million is a small price to pay to 
strengthen Americans' safety and security by accurately, efficiently, 
and securely verifying birth data on the 245 million driver's licenses 
issued annually. Six years after REAL ID's enactment, isn't it time to 
implement the 9/11 Commission's recommendations and invest in the goals 
of REAL ID and identity verification?
    NAPHSIS appreciates the opportunity to submit this statement for 
the record and looks forward to working with the subcommittee.
                                 ______
                                 
  Prepared Statement of the National Emergency Management Association
                              introduction
    Thank you for the opportunity to submit this statement for the 
record regarding the fiscal year 2012 budget for the Department of 
Homeland Security (DHS). As president of the National Emergency 
Management Association (NEMA) I represent the emergency management 
directors of all 50 States, territories, and the District of Columbia. 
Members of NEMA are responsible to the Governors for myriad 
responsibilities including emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural or terrorism-
related disasters.
                emergency management performance grants
    The highest priority for NEMA within the President's request is 
funding for the Emergency Management Performance Grants (EMPG). EMPG 
assists State and local governments in managing a variety of disasters 
and hazards providing the only source of Federal assistance to State 
and local government for all-hazards emergency management capacity 
building. Grantees utilize EMPG funds for personnel, planning, 
training, exercises, warning systems, public outreach, and other 
essential functions in establishing effective preparedness, mitigation, 
response, and recovery. This program is of considerable economic value 
to the Federal Government as all Federal funds are matched 50-50 by 
State and local governments. Such a matching requirement increases 
accountability and supplements the impact of valuable Federal dollars.
    This year, NEMA fully supports the President's requested funding 
level and House Appropriations Committee recommendation of $350 million 
for EMPG. We appreciate the resource constrained environment, but when 
compared to other grant programs, the 50-50 match allows EMPG to stand 
alone as a worthwhile investment of Federal funds. In many ways, EMPG 
offers a cost-savings by allowing States to manage disasters which 
would otherwise need to be addressed by the Federal Government.
    NEMA, in conjunction with the International Association of 
Emergency Managers, has taken the most significant step forward to-date 
in attempting to measure the effectiveness of EMPG. In March 2011, the 
two associations combined to release Emergency Management Performance 
Grants: Providing Returns on a Nation's Investment. The report measures 
the effectiveness of funding provided EMPG in fiscal year 2010. It also 
ties individual State and local efforts into the far larger picture of 
overall preparedness by demonstrating how a truly national emergency 
management system is developed and supported.
    A copy of the report is available online at: http://
www.nemaweb.org/index.php?option=com_pollydoc&format=raw&id=2583&view=do
c
                    homeland security grant program
    NEMA members remain alarmed at the significant cuts proposed by the 
House Appropriations Committee to the State Homeland Security Grant 
Program (SHSGP). This program provides funds to build capabilities at 
the State and local levels and to implement the goals and objectives 
included in State homeland security strategies and initiatives in the 
State Preparedness Report. Funding amounts must remain at pre-
consolidation levels, and these grants must be used in support of 
building an all-hazard capability. Furthermore, providing sole 
discretion to the Secretary of Homeland Security allows far too many 
opportunities for ``politics'' to be played with these critical grant 
programs. While in theory, combining grant programs and consolidation 
may appear sound; in practice such efforts remain impractical.
    We urge the subcommittee to provide States greater flexibility in 
use of homeland security funds for all-hazards activities. Such 
flexibility allows the grant funding to be utilized by each State 
according to need, existing resources, and capabilities. This 
flexibility will serve to increase preparedness for all hazards 
including terrorism. The effort to enhance and build the national 
emergency response system is a national effort and Federal resources 
should continue at the current level to maintain effectiveness. As the 
subcommittee considers funding for the SHSGP, NEMA urges sustained 
appropriations levels on a multi-year basis to allow for long-range 
planning, maintenance, implementation, and measurement.
                        pre-disaster mitigation
    The Administration's request of $85 million for the Pre-disaster 
Mitigation Grant (PDM) Program reflects the amount normally available 
for programmatic activities after congressionally directed funding has 
been allocated out of a $100 million appropriation. Since fiscal year 
2002, PDM has been a competitively awarded grant program. The PDM 
program continues to be over-subscribed as more projects become 
eligible than can be funded in any given fiscal year at present funding 
levels.
    NEMA supports the President's request of $85 million provided the 
ban on congressionally directed funding from the recent reauthorization 
language is followed. Should targeted funding continue to be a part of 
this program, we would request appropriate funds above the $85 million 
to off-set the programmatic impacts.
                      emergency operations centers
    There remains a shortfall in the ability for States to build, 
retrofit, and upgrade primary and alternate emergency operations 
centers (EOC). According to the 2010 NEMA Biennial Survey, an estimated 
$398 million in requirements exist to bridge the shortfall. The current 
EOC Grant Program is intended to improve emergency management and 
preparedness capabilities by supporting flexible, sustainable, secure, 
and interoperable EOCs with a focus on addressing identified 
deficiencies and needs. Fully capable emergency operations facilities 
at the State and local levels stand as an essential element of a 
comprehensive national emergency management system and are necessary to 
ensure continuity of operations and continuity of government in major 
disasters caused by any hazard. The continued viability of a strong and 
robust EOC Grant Program remains in the Nation's best interest.
                emergency management assistance compact
    Finally, I wish to address funding for the Emergency Management 
Assistance Compact (EMAC). When States and the U.S. territories joined 
together and the Congress ratified EMAC (Public Law 104-321) in 1996, 
it created a legal and procedural mechanism whereby emergency response 
resources such as urban search and rescue teams can quickly move 
throughout the country to meet disaster needs. All 50 States, the 
District of Columbia, and three territories are members of EMAC and 
have committed their emergency resources in helping neighboring States 
and territories.
    EMAC has grown significantly in size, volume, and the type of 
resources it provides over the years. Since 2004, the volume and types 
of resources requested under EMAC has grown considerably. For example, 
26 emergency management personnel responded to the September 11, 2001, 
terrorist attacks. Conversely, more than 66,000 personnel from a 
variety of disciplines deployed to the gulf coast in response to 
Hurricanes Katrina and Rita and 12,279 personnel to Texas and Louisiana 
during Hurricanes Gustav and Ike. The 2009 spring flooding in North 
Dakota and Minnesota resulted in States deploying equipment, sandbags, 
and 1,029 personnel to North Dakota. In all, 727 National Guard 
personnel and 302 civilians were sent to assist via the compact.
    The capabilities of EMAC remain sustained by the efforts of all the 
States and would be bolstered by direct support of EMAC. While EMAC 
currently receives FEMA grant funding, fulfilling NEMA's request for a 
$2 million line item appropriation would codify the program for use in 
future disasters. In the past, NEMA has advocated for $4 million of 2-
year funding, but pursuant to an agreement with FEMA programmatic 
personnel, our position is now one of single-year funding of $2 
million. Please note these funds do not represent an earmark as they 
provide numerous benefits directly to the States to build and maintain 
a national mutual aid system.
    As the opportunity is afforded, EMAC intends to develop, maintain, 
and exercise State and regional mutual aid capabilities, train State 
and local emergency response personnel who may be deployed through 
EMAC, support the development of specialized emergency response 
capabilities among the regions, and ensure EMAC remains a viable 
resource for the States now and in the future. In my opinion, $2 
million in Federal funds stands as a minimal investment for maintaining 
a proven national emergency response capacity that day-to-day is 
equipped, trained, and ready to provide critical disaster response 
resources and support between States. All members of EMAC rely on this 
asset as a critical tool in their response and recovery arsenal.
                               conclusion
    Again, I appreciate the opportunity to address these issues 
critical to the emergency management community. This subcommittee 
regularly affirms support for ensuring preparedness for our Nation's 
vulnerabilities against all-hazards with additional investments in EMPG 
and EOCs. As you develop the fiscal year 2012 budget for the Department 
of Homeland Security, we encourage you to utilize our membership as a 
resource and continue efforts to build a strong and robust emergency 
management baseline in our country. Together, we will carry-on the 
initiatives so thoughtfully developed by this subcommittee over the 
years. I thank you for the opportunity to testify on behalf of NEMA and 
appreciate your continued partnership.
                                 ______
                                 
      Prepared Statement of the National Treasury Employees Union
    Chairman Landrieu, Ranking Member Coats, distinguished members of 
the subcommittee, thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) officers, agriculture specialists, 
and trade enforcement and compliance specialists who are stationed at 
331 land, sea, and air ports of entry across the United States.
    Customs and Border Protection entry specialists, import 
specialists, paralegal specialists that determines fines, penalties and 
forfeitures, customs auditors and attorneys and other trade compliance 
personnel are the frontline of defense against illegal imports and 
contraband. These employees enforce more than 400 U.S. trade and tariff 
laws and regulations in order to ensure a fair and competitive trade 
environment pursuant to existing international agreements and treaties, 
as well as stemming the flow of illegal imports, such as pirated 
intellectual property and counterfeit goods, and contraband such as 
child pornography, illegal arms, weapons of mass destruction, and 
laundered money. CBP is also a revenue collection agency--collecting 
$32 billion in duties and fees on imports valued at more than $2 
trillion in 2007.
    Along with facilitating legitimate trade and enforcing trade and 
security laws, CBP trade personnel are responsible for stopping illegal 
transshipments, goods with falsified country of origin, goods that are 
misclassified and for collecting antidumping and countervailing duties. 
According to a GAO report on Customs Revenue Functions (GAO-07-529), 
CBP collected nearly $30 billion customs duties in fiscal year 2006, 
but did not collect approximately $150 million in antidumping duties 
alone in 2006. In addition, it is estimated that $500 million in 
antidumping duties were left uncollected between 2001 and 2006 (See 
GAO-07-529, page 23 and pages 29-30.)
               trade enforcement and compliance staffing
    When CBP was created, it was given a dual mission of not only 
safeguarding our Nation's borders and ports from terrorist attacks, but 
also the mission of regulating and facilitating international trade. 
CBP is responsible for collecting import duties and ensuring importers 
fully comply with applicable laws, regulations, quotas, Free Trade 
Agreement requirements, and intellectual property provisions.
    Customs revenues are the second largest source of Federal revenues 
collected by the U.S. Government after tax revenues. This revenue funds 
other Federal priority programs. NTEU is deeply concerned with the lack 
of resources, both in dollars and manpower, devoted to CBP's trade 
functions. Lack of sufficient focus and resources costs the U.S. 
Treasury in terms of customs duties and revenue loss and costs American 
companies in terms of lost business to unlawful imports.
    Because of continuing staffing shortages, inequitable compensation, 
and lack of mission focus, experienced CBP commercial operations 
professionals at all levels, who long have made the system work, are 
leaving or have left the agency. Twenty-five percent of CBP import 
specialists will retire or be eligible to retire within the next few 
years.
    When the Congress created the Department of Homeland Security, the 
House Ways and Means and Senate Finance Committees included section 
412(b) in the Homeland Security Act (HSA) of 2002 (Public Law 107-296). 
This section mandates that ``the Secretary [of Homeland Security] may 
not consolidate, discontinue, or diminish those functions . . . 
performed by the United States Customs Service . . . on or after the 
effective date of this [a]ct, reduce the staffing level, or reduce the 
resources attributable to such functions, and the Secretary shall 
ensure that an appropriate management structure is implemented to carry 
out such functions''.
    In October 2006, the Congress enacted the Security and 
Accountability For Every (SAFE) Port Act (Public Law 109-347). Section 
401(b)(4) of the SAFE Port Act directed the DHS Secretary to ensure 
that requirements of section 412(b) of the HSA (6 U.S.C. 212(b)) are 
fully satisfied.
    CBP satisfied this statutory requirement by freezing the number of 
many maintenance of revenue function positions at the level in effect 
on the date of creation of the agency in March 2003. As you know, CBP 
was created by the merger of the former U.S. Customs Service, the 
Immigration and Naturalization Service, and the Animal, Plant, Health 
Inspection Service. In March 2003, the number of commercial operations 
employees at the former U.S. Customs Service was significantly less 
than prior to 9/11 and significantly less than the need as stated in 
the U.S. Customs Service Optimal Staffing Levels Fiscal Years 2000-2002 
(February 25, 2000), known as the resource allocation model (RAM).
    For example, according to the U.S. Customs RAM, in fiscal year 
1998, the optimal staffing level for import specialists at the U.S. 
Customs Service was 1,249, and based on workload in fiscal year 2002, 
the optimal staffing level for import specialists was 1,489 (pages 2, 
A-1 and M-1 through M-12).
    In actuality, in March 2003 when CBP stood up, there were only 984 
import specialists on-board. That is 265 import specialist positions 
less than the 1998 base total, and 505 less than the fiscal year 2002 
import specialists optimal staffing level. A significant reduction in 
the number of revenue maintenance function positions had occurred at 
the U.S. Customs Service between 9/11 and March 2003 when CBP stood up. 
Section 412(b) of the HSA reflected the Congress's concern regarding 
this diminishment in the number of customs revenue function positions 
versus customs security function positions at the U.S. Customs Service 
and fear that it would continue and be exacerbated by its merger into 
CBP.
    Even though CBP complied with the letter of section 401(b)(4) of 
the SAFE Port Act, it appears to NTEU that CBP views the ``March fiscal 
year 2003 Staff On-Board'' numbers of revenue maintenance function 
positions (see appendix I), including such vital trade facilitation and 
enforcement positions as entry and import specialists, as a ceiling 
rather than a floor.
              cbp's resource allocation/optimization model
    CBP's adherence to the March 2003 import specialist employment 
number as a ceiling has become evident in the most recent iteration of 
the SAFE Port Act mandated RAM. Section 403 of the SAFE Port Act 
required CBP to complete a RAM by June 2007, and every 2 years 
thereafter, to determine optimal staffing for commercial and revenue 
functions. It directed that the model must comply with the requirements 
of section 412(b) of the Homeland Security Act (HSA) of 2002 and 
required the CBP Commissioner, not later than September 30, 2007, to 
ensure that the requirements of 412(b) of the HSA were fully satisfied. 
The CBP positions covered by section 412(b) include entry specialists, 
import specialists, drawback specialists, national import specialists, 
fines and penalty specialists, attorneys at the Office of Regulations 
and Rulings, customs auditors, international trade specialists, and 
financial systems specialists.
    The rationale for this provision arose from a Government 
Accountability Office (GAO) report (GAO-05-663) that stated, ``as of 
June 2003, CBP has not increased staffing levels [at the POEs]'' and 
``CBP does not systematically assess the number of staff required to 
accomplish its mission at ports and airports nationwide . . . '' 
Further, GAO observed that ``not identifying optimal staffing levels 
prevents CBP from performing workforce gap analyses, which could be 
used to justify budget and staffing requests.''
    The former U.S. Customs Service's last internal review of staffing 
for fiscal years 2000-2002, dated February 25, 2000, shows that the 
U.S. Customs Service needed more than 14,776 new hires just to fulfill 
its basic mission (U.S. Customs RAM, page 2 and A-1)--and that was 
before 9/11. Since then, the Department of Homeland Security was 
created and the U.S. Customs Service was merged with the Immigration 
and Nationalization Service and parts of the Agriculture Plant Health 
Inspection Service to create CBP. CBP was given an expanded mission of 
providing for both the first line of defense against domestic terrorism 
and making sure trade laws are enforced and trade revenue collected.
    The first section 403 RAM, dated July 6, 2007, stated that ``CBP 
has over 8,200 employees that are involved in commercial trade 
operations. The model suggests that to carry out these commercial 
operations and to adequately staff the needs for priority trade 
functions, the optimal level of staff in fiscal year 2008 would be over 
10,000 employees'' (page 12 of CBP Report to Congress on Trade Resource 
Allocation Model.) According to the 2007 RAM, 1,100 import specialists 
would be needed for optimal performance in fiscal year 2010, an 
increase of 116 more than the HSA Floor (see page 16).
    In 2009, CBP renamed the section 403 resource allocation model 
(RAM) (the SAFE Port Act mandated Report to Congress). It is now called 
the resource optimization model (ROM). The fiscal year 2009 ROM reduces 
the fiscal year 2010 optimal staffing levels for some revenue 
maintenance function positions, specifically the entry and import 
specialist positions (see appendix II). For example, the fiscal year 
2009 ROM puts the number of import specialist positions needed in 
fiscal year 2010 at the HSA floor number of 984, rather than 1,100 as 
stated in the fiscal year 2007 RAM.
                   import specialist allocation model
    In 2009, CBP Office of Field Operations updated its import 
specialist allocation model (ISAM), ``a decision support tool in the 
allocation of resources''. The number of import specialists allocated 
for staffing the ports of entry, however, was determined to be 984 
prior to the compiling of the ISAM. The allocation model was done with 
the staffing number outcome already pre-determined.
    In the ISAM, CBP states that the Office of Field Operations 
``manages a set allocation of 984 for import specialists, which is the 
minimum staffing requirement set forth by the Homeland Security Act of 
2002.'' Since the number of import specialist positions is frozen at 
984 nationwide, CBP's ISAM proposed a net reduction of 52 import 
specialist positions (from 179 to 127) at New York City area ports, 
shifting those positions to other ports (see appendix III) in order to 
handle current workload. CBP plans to eliminate positions at the ports 
with the highest number of import specialists--primarily the New York 
City region--to fill needs in other ports. NTEU is concerned that the 
ISAM is a zero-sum model that does not address actual staffing needs.
    Ports specialize in different areas of trade compliance and have 
different needs depending on the operation--air, sea, or land ports. 
Larger ports handle all areas of trade compliance whereas smaller ports 
might see a large amount of one type of commodity or only deal with a 
small range of trade compliance issues.
    Because of these differences between the ports of entry, rather 
than using a one-size-fits-all metric to determine allocation of import 
specialists, the data elements and factors that CBP weighs in 
determining allocation of import specialists should be different for 
each port depending on what type of operation it is and what the 
prevalent trade issues are at that port. Then, staffing should be 
decided using a work-to-staff ratio based on a formula and weighting of 
the elements for that port specifically.
    ``Informed compliance'' is not given any weight at all when 
determining import specialist staffing needs at individual ports. 
Authorized by the Customs Modernization Act (Mod act), ``informed 
compliance'' plays a major role in CBP's trade enforcement and 
compliance operations. Two new concepts that emerged from the Mod act 
are ``informed compliance'' and ``shared responsibility,'' which are 
premised on the idea that in order to maximize voluntary compliance 
with trade laws and regulations, the trade community needs to be 
clearly and completely informed of its legal obligations.
    Accordingly, the Mod act imposes a greater obligation on CBP to 
provide the public with improved information concerning the trade 
community's rights and responsibilities under customs regulations and 
related laws. Both the trade and CBP share responsibility for carrying 
out these requirements. For example, under section 484 of the Tariff 
act, as amended (19 U.S.C. 1484), the importer of record is responsible 
for using reasonable care to enter, classify, and determine the value 
of imported merchandise and to provide any other information necessary 
to enable CBP to properly assess duties, collect accurate statistics, 
and determine whether other applicable legal requirements, if any, have 
been met. CBP is then responsible for fixing the final classification 
and value of the merchandise. An importer of record's failure to 
exercise reasonable care could delay release of the merchandise and, in 
some cases, could result in the imposition of penalties.
    It is the responsibility of the importers of record to make sure 
that what they submit to CBP is correct and it is the job of the import 
specialist, through informed compliance, to verify that what is being 
submitted is correct. Therefore, when considering import specialist 
staffing allocations at each port, the time the import specialist 
spends meeting with and educating the importing community should be 
part of the equation. NTEU believes that if done in this manner, CBP's 
import specialist staffing allocations would require increased import 
specialist staffing levels nationally.
                             tariff sharing
    Last year, in response to an import specialists staffing shortage 
and pursuant to the 2009 ISAM, CBP is implementing at certain ports a 
tariff sharing scheme. For example, because CBP has frozen at 984 
nationwide the total number of import specialist positions, CBP is in 
the process of reducing by 52 positions (from 179 to 127) the number of 
import specialists at the New York City-area ports (see appendix III) 
and shifting those positions to other ports. To address the loss of 52 
import specialist positions at New York City area ports of entry (New 
York-Newark gains 3 import specialist positions, but JFK loses 55 
import specialist positions), CBP has implemented tariff sharing 
between the ports of New York and Newark and JFK airport. Until last 
year, each port (Newark and JFK) processed all types of entries and all 
types of commodities via the harmonized tariff schedule (HTS). In other 
words, each port had full tariff coverage.
    Because of this reduction in trade personnel, each port has now 
been assigned only parts of the HTS, not the entire HTS, and each port 
only processes only one-half the commodities entering its port. Tariff 
sharing presents a number of operational problems. Because the HTS will 
be split, each port will have one-half the number of commodities teams 
(staffed by import specialists) than they currently have. Certain kinds 
of merchandise will continue to be unloaded at the port of Newark, but 
the only commodity team that is trained to process it will be at JFK. 
And other merchandise will continue to be unloaded at JFK, but the only 
commodity team trained to process it will be in Newark. CBP has 
directed import specialists to, in these cases where there is no longer 
the appropriate commodity team present at the port to do a physical 
examination, take digital photos of the merchandise and email the 
photos to the other port. A digital photo cannot determine lead levels 
in toys or thread count in textiles. This is a short-sighted solution 
to an import specialist staffing shortage that will affect taxpayers, 
trade compliant importers, and the Federal treasury.
    Rather than hire additional import specialists at ports of entry 
where they are needed, CBP instead is shortchanging the New York City 
trade community. It is clear that the fiscal year 2009 ROM, that states 
that only 984 import specialists are needed nationwide, does not 
adequately reflect the optimal staffing levels for import specialists 
as evidenced by the need to implement a tariff sharing scheme at New 
York City region ports of entry.
                 tariff sharing and antidumping orders
    Tariff sharing significantly affects import specialists' timely 
disposition of antidumping orders. The problems that arise from tariff 
sharing centers around the movement of entries between JFK and Newark. 
When liquidation orders are published in the Federal Register, CBP has 
6 months to liquidate and process those entries. There is almost always 
a certain amount of lag time between when the liquidation orders are 
published in the Federal Register and when the import specialists on 
the commodity team associated with that merchandise are actually made 
aware of the liquidation orders. In actuality, the import specialist 
rarely has the full 6-month period to liquidate and process these 
order.
    Prior to the Federal Register posting, the entries are kept in 
files with the commodity team that handles the merchandise. For 
example, under tariff sharing, the entry paperwork of commodities that 
are received at JFK, but are inspected by a commodity team at Newark, 
is supposed to be transferred to Newark and not filed at JFK. In many 
cases, however, when the liquidation order is issued, the commodity 
team in Newark goes through their files of antidumping entries. 
Frequently, there are JFK entries missing that were lost in 
transportation. At that point, Newark import specialists contact JFK to 
see if they can find the lost files. If the lost files can't be found, 
the Newark import specialist makes an inquiry to the Records Department 
to try and to retrieve these entries, which takes time.
    Pressed for time, import specialists then call the broker to ask 
the broker to reconstruct the entries and send these reconstructed 
entries to the commodity team. The commodity team then reviews these 
reconstructed entries to make sure that the entry type codes are the 
correct type for antidumping entries and that the entries were put on 
hold and not previously liquidated. If this happens, CBP could lose its 
ability to liquidate at the antidumping rates that are applied via the 
liquidation order and the extra duties cannot be collected. Recently in 
Newark, CBP lost the extra duty on 17 entries due to this very 
scenario. These liquidation orders encompass hundreds of entries. 
Conversely, JFK has the same problem on their end when they have 
antidumping entries to deal with. This same problem with disposition of 
antidumping orders is occurring at the ports of Detroit and Port Huron 
where CBP has also implemented tariff sharing.
    Under tariff sharing, revenue from antidumping orders is being 
lost. Again, it is clear that the fiscal year 2009 ROM, that states 
that only 984 import specialists are needed nationwide, does not 
adequately reflect the optimal staffing levels for import specialists 
that process antidumping orders.
    Finally, NTEU has just learned that because the import specialists 
at the ports of New York and New Jersey are overwhelmed with work due 
to the loss of the 52 trade positions (that has resulted CBP 
implementing tariff sharing at these ports), CBP has begun assigning 
audits to import specialists at other ports, even though the majority 
of the merchandise and entries associated with the importer being 
audited come into the ports of New York and New Jersey.
                  fiscal year 2012 cbp budget request
    Several years ago, pursuant to the provisions of the SAFE Port Act, 
there was a small increase in the number of CBP trade enforcement and 
compliance personnel. There was no increase in funding for CBP trade 
operations staffing in the fiscal year 2010 DHS appropriations bill and 
again, the fiscal year 2011 continuing resolution has no increase in 
full-time equivalents (FTEs) for CBP trade operations personnel.
    In effect, there has been a CBP trade staffing freeze at March 2003 
levels and, as a result, CBP's revenue function has suffered. The 
fiscal year 2012 budget requests funding for CBP's enforcement program 
to ``prevent trade in counterfeit and pirated goods, and enforce 
exclusion orders on patent-infringing and other intellectual property 
rights violative goods.'' This request, however, includes no increase 
in CBP trade operations staff at the POEs to implement this trade 
enforcement program. NTEU urges the subcommittee to appropriate funding 
to hire additional trade enforcement and compliance personnel, 
including import specialists, at the POEs to enhance trade revenue 
collection.
                     cbp career ladder pay increase
    NTEU commends the Department for the recent increase in journeyman 
pay for CBP officers and agriculture specialists. Unfortunately, many 
deserving CBP trade and security positions were left out of this pay 
increase, which has significantly damaged morale. The 23,450 armed, 
uniformed CBP officers and uniformed CBP agriculture specialist will be 
eligible for the increase, but the approximately 2,000 non-uniformed 
CBP commercials operations employees will not.
    NTEU strongly supports extending this same career ladder increase, 
from GS-11 to GS-12, to additional CBP positions, including CBP entry, 
import and paralegal specialists and CBP-seized property specialists. 
The journeyman pay level for the CBP technicians who perform important 
commercial trade and administrative duties should also be increased 
from GS-7 to GS-9. These upgrades are long overdue and would show CBP 
trade personnel that the Congress recognizes the high level of 
expertise that these employees possess.
                       study of dedicated funding
    In 2007, the total value of all imports into the United States was 
more than $2 trillion. Processing these imports meant handling 22 
million entry summaries by CBP entry specialists, import specialists, 
and support staff. In addition to its security and trade missions, CBP 
works with more than 40 Federal agencies to help enforce a wide range 
of laws from consumer product and food safety, to environmental 
protection. It is clear that additional CBP commercial operations 
staffing and training funds are needed. Multiple proposals to increase 
customs fees are currently being promoted to support a great variety of 
proposed programs. Security needs, along with important national trade 
policy goals, require additional financial resources. NTEU encourages 
the subcommittee to request a study of the setting, collection, and 
utilization of these customs and user fees. This study should determine 
the relationship between current fees and monies allocated for CBP 
services and assess the need for additional fees.
                               conclusion
    Customs revenues are the second largest source of Federal revenues 
that are collected by the U.S. Government. The Congress depends on this 
revenue source to fund priority programs. The subcommittee should be 
concerned as to how much CBP trade enforcement staffing shortages cost 
in terms of revenue loss to the U.S. Treasury.
    And most importantly, for the purposes of this hearing, CBP trade 
personnel are responsible for stopping illegal transshipments, goods 
with falsified country of origin, goods that are misclassified and for 
collecting antidumping and countervailing duties. The ongoing freeze in 
the number of CBP trade compliance and enforcement staff undermines 
this mission.
    In order to prevent customs fraud and duty evasion, NTEU urges the 
Congress to increase the number of trade compliance and enforcement 
staff responsible for enforcing antidumping and countervailing duty 
orders issued under title VII of the Tariff Act of 1930 (19 U.S.C. 1671 
et seq.) and preventing the importation of merchandise in a manner that 
evades that antidumping and countervailing duty orders issued under 
title VII of the Tariff Act of 1930 (19 U.S.C. 1671 et seq.)--a 
responsibility that falls solely on the shoulders of CBP import 
specialists.
    NTEU urges the subcommittee to fund the hiring of additional needed 
CBP trade staff to enforce the more than 400 U.S. trade and tariff laws 
and regulations for which they are responsible, to end the current 
practice of tariff sharing at several major ports of entry, and to 
ensure full tariff coverage at all major trade ports of entries listed 
on the ISAM (appendix III.)
    The more than 24,000 CBP employees represented by the NTEU are 
proud of their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade.
    Thank you for the opportunity to submit this testimony on their 
behalf.
                                 ______
                                 
Prepared Statement of the U.S. Council of the International Association 
                         of Emergency Managers
    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, I am Eddie Hicks, the director of emergency 
management for Morgan County, Alabama. I serve as the president of the 
U.S. Council of the International Association of Emergency Managers 
(IAEM-USA) and am providing, on their behalf, this statement on 
critical budget and policy issues for the Federal Emergency Management 
Agency (FEMA). I have been a local government emergency manager for 31 
years. I also served three terms as president of the Alabama 
Association of Emergency Managers. We support funding the Emergency 
Management Performance Grant at $350 million, the Emergency Management 
Institute at $11.9 million, and predisaster mitigation at $84.9 million 
in the budget for FEMA.
    IAEM is our Nation's largest association of emergency management 
professionals, with 5,000 members including emergency managers at the 
State and local government levels, tribal nations, the military, 
colleges and universities, private business, and the nonprofit sector. 
Most of our members are U.S. city and county emergency managers who 
perform the crucial function of coordinating and integrating the 
efforts at the local level to prepare for, mitigate the effects of, 
respond to, and recover from all types of disasters including terrorist 
attacks. We deeply appreciate the support this subcommittee has 
provided to the emergency management community over the past few years, 
particularly your support for the Emergency Management Performance 
Grant Program (EMPG) as well as strengthening FEMA.
                emergency management performance grants
    We respectfully urge that the subcommittee approve the President's 
request of $350 million for EMPG, but reject combining it with other 
accounts. EMPG is fundamentally different than the post-September 11, 
2001 Homeland Security grants because of its 50-percent Federal and 50-
percent State- and local-matching requirements and established 
performance measures. It also pre-dates the Homeland Security grants by 
over 50 years. We also request that language be included continuing to 
make it clear the funding is for all hazards and can be used for 
personnel.
    The program is authorized at $950 million for fiscal year 2012 in 
Public Law 110-53.
    EMPG which has been called ``the backbone of the Nation's emergency 
management system'' in an Appropriations Conference Report constitutes 
the only source of direct Federal funding for State and local 
governments to provide basic emergency coordination and planning 
capabilities for all hazards including those related to homeland 
security. The program supports State and local initiatives for 
planning, training, exercise, mitigation, public education, as well as 
response and recovery coordination during actual events. All disasters 
start and end at the local level, which emphasizes the importance of 
building this capacity at the local level. Funding from EMPG frequently 
makes a difference as to whether or not a qualified person is present 
to perform these duties in a local jurisdiction.
    The legislation creating EMPG is purposefully broad to allow 
jurisdictions to focus their attention on customizing their 
capabilities. Therefore it is important that FEMA guidance not try to 
make one size fit all but is written so as to allow maximum flexibility 
in meeting the specific capability requirements within each local 
jurisdiction.
    Funding from EMPG has always been important to local government 
emergency management offices, and is even more vital during the current 
economic downturn. The programs of many of our local emergency managers 
have faced or will be facing budget reductions resulting in reduced 
staffing, reduced training, reduced public outreach, and reduced 
support to volunteers. Some elected officials are considering reducing 
their commitment from a full-time emergency manager to a part-time 
emergency manager, or moving the emergency management functions as 
added duties to other departments. This has the effect of actually 
reducing emergency management services--and potentially preparedness--
in many areas of the country at a time when disasters and emergencies 
threaten more people and property than ever before. Simply receiving 
the entire 50-percent Federal match of their contributions would make a 
big difference in maintaining their programs. It should be noted that 
many local emergency management programs have historically provided 
significantly more than the 50-percent match that is required for their 
EMPG allocations.
                     emergency management institute
    We respectfully urge the subcommittee to increase the funding for 
the Emergency Management Institute (EMI) to $11.9 million. The fiscal 
year 2010 enacted amount for EMI was $9 million. It is our 
understanding that the request amount for fiscal year 2012 for EMI is 
$9 million although it is not specifically mentioned in the President's 
request. We urge you to again specifically designate funding for EMI in 
your subcommittee report and to require FEMA to include a specific 
request in the budget documents.
    The $2.9 million increase over fiscal year 2010 would support 
speeding the development and implementation of the Foundational 
Academy; continued updating and development of the field (G) and on-
campus (E) courses; and, the development of other vital programs 
especially an Executive Emergency Management Program for State, local, 
and tribal emergency managers.
    Our disasters and emergencies are becoming more complex, and our 
State, local, and tribal emergency management officials continue to 
assume additional duties and responsibilities.
    To meet these emerging challenges, new and updated training from 
EMI is imperative. Lessons are being learned which must be incorporated 
into our professional body of knowledge. We are extremely encouraged by 
the renewed focus and efforts to update and enhance training programs 
over the past year with the funding support of the Congress. We 
continue to support the highly successful Emergency Management Higher 
Education Program at EMI which has produced significant improvements in 
the preparation of emergency managers at over 232 college and 
university programs.
                          disaster mitigation
    We support the President's budget request of $84,937,000. A 
congressionally mandated independent study by the Multi-Hazard 
Mitigation Council, a council of the National Institute of Building 
Sciences, showed that on the average, $1 spent by FEMA on hazard 
mitigation (actions to reduce disaster losses) provides the Nation 
about $4 in future benefits.
                           strengthening fema
    IAEM-USA continues to strongly support the full implementation of 
Post-Katrina Emergency Management Reform Act (PKEMRA), Public Law 109-
205, and we urge the subcommittee to continue insisting on its 
implementation. The momentum returning FEMA to long-established 
principles of emergency management--all hazards, integrated, all phases 
(mitigation, preparedness, response, and recovery)--must continue. The 
FEMA Administrator should be clearly responsible for the coordination 
of the Federal response to disasters and have the maximum amount of 
access to the White House as the legislation clearly requires. We are 
still reviewing Presidential Policy Directive-8, but are pleased that 
it included language that the directive shall be implemented consistent 
with relevant authorities, including PKEMRA and its assignment of 
responsibilities with respect to the Administrator of FEMA (PPD-8, page 
5).
    We remain concerned that FEMA functions should not be duplicated in 
other parts of DHS. For example, the DHS Office of Operations 
Coordination, created shortly after the enactment of PKEMRA, appears to 
be assigned functions that duplicate or compete with those of FEMA such 
as coordinating activities related to incident management and response.
                        fema response in alabama
    Morgan County, Alabama--my jurisdiction--was one of the 41 counties 
impacted by the Alabama tornadoes that happened on April 27, 2011. We 
were fortunate that we did not receive the same level of destruction 
which occurred in many other counties however we still have sufficient 
damage to have been included in the declaration. Alabama has a total of 
67 counties.
    We have an emergency management system in Alabama--a system of 
strong local programs working with a strong State program, coupled with 
a restored, more confident and nimble FEMA that is making a real 
difference in the lives of our citizens. The foundation of this strong 
local capability is the exercising, training, planning, and experienced 
personnel provided through the Emergency Management Performance Grant 
(EMPG). One thing we would like to remark on is the restoration of a 
past practice of assigning a FEMA person to serve as a ``county 
liaison'' for one or more counties included in the declaration. This 
person serves as a conduit to brief us on the latest developments 
related to the Federal portion of the recovery. In turn, this person 
can also field questions or resolve issues related to the Federal 
recovery. We think this is a potential ``best practice''. Some of our 
citizens who lost their homes have already been in temporary (mobile 
home) housing for 1 week or more--and this is just over 1 month after 
our tornado event. This is a nimble response by FEMA, and it represents 
a real improvement from the past.
                       principal federal official
    We would urge the subcommittee to include bill language prohibiting 
the funding of any position designated as a principal Federal official 
(PFO) for a Stafford Act event. IAEM has consistently opposed the 
appointment of PFOs. It leads to confusion. Instead, our members want 
the Federal coordinating officer to have unambiguous authority to 
direct and manage the Federal response in the field. It is absolutely 
critical for State and local officials to have one person empowered to 
make decisions and coordinate the Federal response in support of the 
State.
                               conclusion
    In conclusion, we urge the subcommittee to continue to build 
emergency management capacity by funding EMPG at $350 million. We urge 
increasing funding for EMI to $11.9 million. We urge elimination of the 
PFO for Stafford Act events.
    We urge the subcommittee to continue its efforts to strengthen FEMA 
and to insist on the full implementation of the provisions of PKEMRA.
    Thank you for the opportunity to provide testimony.

</pre></body></html>
